NO

31n tf)e

Supreme Court of tfje ®ntteb H>tate£
OWEN W. BARNABY — PETITIONER
VS.
BRET WITKOWSKI, et al., — RESPONDENT(S)

PROOF OF SERVICE

I, Owen W. Bamaby, do declare that on the 13 day of October, 2020, a
duplicate original, as required by Supreme Court Rule 29,1 have served the
enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PA UPERIS and
PETITION FOR A WRIT OF CERTIORARI on each party to the above
proceeding via their counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States mail
properly addressed to each of them and with first-class postage prepaid, for
delivery within 3 calendar days. The names and addresses of those served are as
follows: Defendants’ Attorney: Jeffrey R. Holmstrom, Holmstrom Law Office,
PLC. 830 Pleasant Street, Suite 100, St. Joseph, Michigan 49085.1 declare under
penalty of perjury that the foregoing is true and correct.
Respectfully Submitted,
Dated: October 13, 2020

Owen Bamaby, In Pro Se

